BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-827
UNITED STATES OF .AMERICA,

Petitioner,
V.

ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
A.K.A. ABU ZUBAYDAH, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief for Amici Curiae National
Religious Campaign Against Torture; Church of the
Brethren, Office of Peace building and Policy; General
Synod of the United Church of Christ; National
Advocacy Center of the Sisters of the Good Shepherd;
Congregation of Our Lady of Charity of the Good
Shepherd, U.S. Provinces; Alliance of Baptists; Friends
Committee on National Legislation; Maryknoll Office
for Global Concerns; and Reconstructionist Rabbinical
Association in Support of Respondents and Affirmance
contains 7,888 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregojng is true and correct.
Executed on August 20, 2021.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Dri'le
Suite 102
· Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.
Date:

~

dJ o(

dd!:: ~, •~

Notary Public
[seal]

Jo I

